No. 20-1088
IN THE

Supreme Court of the United States
DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of
Education,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Innovative Schools as Amici Curiae in Support of Petitioners contains
4,602 words and complies with the word limitation established by Rule 33.1(g)(xii) of
the Rules of this Court.
Dated: September 10, 2021

/s/ Allyson N. Ho
Allyson N. Ho

